HHS/OIG, Audit -"Audit of the Medicaid Drug Rebate Program in Oregon,"(A-10-03-00005)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Audit of the Medicaid Drug Rebate Program in Oregon," (A-10-03-00005)
June 27, 2003
Complete
Text of Report is available in PDF format (2.99 MB). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This report points out that Oregon had not established adequate policies, procedures, and internal
controls over its drug rebate program as required by federal rules and regulations.  The
State did not properly report drug rebate information to the Centers for Medicare and Medicaid Services nor adequately
establish policies, procedures, and internal controls to account for drug rebate program transactions.  In addition,
the lack of adequate internal controls increased the risk for fraud, waste and abuse of drug rebate program funds.  The
State generally concurred with our findings.